O’Melveny & Myers LLP
1625 Eye Street, NW
Washington, DC 20006-4061

T: +1 202 383 5300
F: +1 202 383 5414
omm.com

Kendall Turner
D: +1 202 383 5204
kendallturner@omm.com

April 30, 2021
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street NE
Washington, DC 20543
Re:

Rutledge v. Little Rock Family Planning Services, No. 20-1434

Dear Mr. Harris:
I write on behalf of respondents to request an extension of time of 45 days under Rule 30.4
to respond to the petition for a writ of certiorari in Rutledge v. Little Rock Family Planning
Services, No. 20-1434. That change would make our brief in opposition due June 28; it is currently
due May 13. On April 29 and 30, I communicated with Mr. Nicholas Bronni, counsel of record
for petitioners, about our plan to seek a 45-day extension. He informed me that petitioners consent
to an extension of 35 days.
Counsel for respondents request a 45-day extension because of challenges stemming from
the ongoing COVID-19 pandemic. The pandemic has complicated our ability to communicate
with our client and has yielded many competing deadlines as courts begin to schedule long-delayed
proceedings. Our other deadlines and commitments include a brief in opposition due in mid-May
in United States v. Taylor, No. 20-1459 (U.S.); an appellee brief due June 16 in Hopkins v. Jegley,
No. 21-1068 (8th Cir.); a merits brief due June 22 in Hemphill v. New York, No. 20-637 (U.S.); a
merits brief due August 13 in Cameron v. EMW Women’s Surgical Center, P.S.C., No. 20-601
(U.S.); and several depositions and briefing deadlines in SmileDirectClub, Inc. v. NBCUniversal
Media, LLC, No. 20-C-1054 (Tenn. Cir. Ct.); Beniak Enterprises v. Chubb, No. 2:20-cv-05536
(D.N.J.); Truhaven Enterprises, Inc. v. Chubb Ltd., No. 2:20-cv-04586 (D.N.J.); and Gottwald v.
Sebert, No. 653118/2014 (N.Y. Sup. Ct.). Additionally, I have been displaced from my home for
several months due to a fire. Given these overlapping demands, we will not be able to prepare a
brief in opposition without the requested extension.
Thank you for your understanding and your attention to this request.
Sincerely,

Kendall Turner
Counsel for Respondents

Century City • Los Angeles • Newport Beach • New York • San Francisco • Silicon Valley • Washington, DC
Beijing • Brussels • Hong Kong • London • Seoul • Shanghai • Singapore • Tokyo

cc:

Leslie Rutledge
Nicholas J. Bronni
Counsel of Record for Petitioners
Vincent M. Wagner
Asher Steinberg
Michael A. Cantrell
Dylan L. Jacobs
Jennifer L. Merritt
Office of the Arkansas Attorney General
323 Center Street, Ste. 200
Little Rock, AR 72201
(501) 682-6302
nicholas.bronni@arkansasag.gov

2

